APPENDIX 1

Case 1:07-cr-00012-LG-JMR Document 80 Filed 01/11/18 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
SOUTHERN DIVISION
UNITED STATES OF AMERICA
v.

CRIMINAL NO. 1:07CR12-LG-JMR
CIVIL NO. 1:16CV224-LG

RAY ANTHONY CHANEY
ORDER GRANTING MOTION TO DISMISS
AND DISMISSING MOTION TO VACATE AS SUCCESSIVE
BEFORE THE COURT is Defendant Ray Anthony Chaney’s [70] Petition
Under 28 U.S.C. § 2255 to Vacate, Set Aside or Correct Sentence by a Person in
Federal Custody, and the government’s [76] Motion to Dismiss Untimely Successive
Petition for 2255 Relief. The issues presented by motions have been fully briefed.
After due consideration of the submissions, the record in this case and the relevant
law, it is the Court’s opinion that the government’s Motion to Dismiss should be
granted and the defendant’s Motion to Vacate should be dismissed as successive.
BACKGROUND
After a jury trial in July 2007, Defendant Chaney was convicted of stealing a
firearm from a federally licensed firearms dealer, possession of a stolen firearm, and
being a felon in possession of a firearm. His conviction and sentence were upheld on
appeal. United States v. Chaney, 299 F. App’x 390 (5th Cir. 2008). Chaney then
filed a motion to vacate under 28 U.S.C. § 2255. (ECF No. 42). Among his grounds
for relief was a claim that counsel should have raised an objection at sentencing
that Chaney’s prior burglaries did not meet the statutory definition of violent
crimes. In its order denying the motion, the Court stated:

Case 1:07-cr-00012-LG-JMR Document 80 Filed 01/11/18 Page 2 of 6

Pursuant to 18 U.S.C. § 924(e), the Court employed the Armed Career
Criminal enhancement to Chaney’s sentence. This enhancement
raised his Sentencing Guideline offense level from a 16 to a 33.
Further, this statute provides in part, that there is a fifteen year
minimum sentence for a person convicted of felon in possession of a
firearm, when that person “has three previous convictions . . . for a
violent felony . . . committed on occasions different from one another.”
18 U.S.C. § 924(e)(1). The statute defines “violent felony” to mean,
among other things, ‘any crime punishable by imprisonment for a term
exceeding one year, or any act of juvenile delinquency involving the use
or carrying of a firearm . . . that would be punishable by imprisonment
for such term if committed by an adult, that . . . is burglary. . . .” 18
U.S.C. § 924(e)(2)(B)(ii). “Burglary” under this statute is defined as
“any crime, regardless of its exact definition or label, having the basic
elements of unlawful or unprivileged entry into, or remaining in, a
building or structure, with intent to commit a crime.” Taylor v. United
States, 495 U.S. 575, 599 (1990).
(Order Denying Motion to Vacate 9, ECF No. 52). The Court concluded that all five
of the 1981 burglary convictions were violent crimes under the Armed Career
Criminal Act (“ACCA”). (Id. at 10).
Approximately four years later, Chaney filed another § 2255 motion, arguing
that his prior burglaries should not have been used to enhance his sentence,
because they were not violent crimes under the ACCA. United States v. Chaney, No.
1:07cr12-LG-JMR, 2015 WL 5021723, at *1 (S.D. Miss. Aug. 24, 2015). The motion
was found to be successive and dismissed for lack of jurisdiction. Id. at 2. Chaney’s
appeal of the decision was dismissed for lack of prosecution. (See Certified Copy of
Judgment/Mandate of USCA, ECF No. 68).
In this third § 2255 motion, Chaney challenges his sentencing as a career
criminal under the ACCA after the United States Supreme Court’s decision in
Johnson v. United States, 135 S. Ct. 2551 (2015). Johnson held that the residual
-2-

Case 1:07-cr-00012-LG-JMR Document 80 Filed 01/11/18 Page 3 of 6

clause in the ACCA’s definition of a violent felony is unconstitutionally vague. Id.
at 2555-63. Chaney argues that Johnson is applicable to his sentencing because
two of the seven prior convictions that rendered him an armed career criminal fell
under the residual clause. He contends that under the rule of lenity, the remaining
five convictions should be considered as one because the five burglaries were
combined in a five count indictment, and there is no information about the
individual burglaries in the Presentence Investigation Report. Thus, Chaney
argues that for purposes of the ACCA, he has only one, not five previous convictions
for a violent felony.
Finding that Chaney had “made a showing of possible merit sufficient to
warrant a fuller exploration by the district court,” the Fifth Circuit Court of Appeals
authorized Chaney’s successive § 2255 motion. (USCA Order 2, ECF No. 72). The
appellate court instructed this Court that “[o]ur grant of authorization is tentative
in that the district court must dismiss the § 2255 motion without reaching the
merits if it determines that Chaney has failed to make the showing required by §
2255(h)(2).”1 (Id.). Thus, the appellate court has charged this Court with

1

This provision of 28 U.S.C. § 2255 reads:

(h) A second or successive motion must be certified as provided in section 2244 by a
panel of the appropriate court of appeals to contain-...

(2) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable.

-3-

Case 1:07-cr-00012-LG-JMR Document 80 Filed 01/11/18 Page 4 of 6

determining whether Chaney’s § 2255 motion actually presents an issue resolved by
the new rule announced in Johnson.
DISCUSSION
The Court ordered the government to respond to Chaney’s Motion, which it
did by filing the Motion to Dismiss presently before the Court. The government
contends that Johnson does not apply to Chaney’s sentencing because the Court did
not rely on the residual clause of the ACCA. (Gov’t Mot. to Dismiss 6, ECF No. 75).
Instead, the Court relied on Chaney’s prior burglary convictions to find him a career
criminal, and burglary is among the enumerated crimes in the ACCA. See 18
U.S.C. § 924(e)(2)(B)(ii).
Chaney argues that although he had seven prior burglary convictions, two of
those – burglary of a non-dwelling and burglary – no longer qualify as violent
felonies under the ACCA after Johnson because they fall under the residual clause.
(Def. Resp. 6, ECF No. 78). As a result, there are only five felony convictions the
Court could properly rely on to find Chaney a career criminal. Id. Chaney argues
that these five burglary and larceny of a dwelling convictions should count as a
single conviction because the Court was not provided with sufficient information to
know precisely when the five burglaries were committed. A single conviction for a
violent felony is not sufficient to sentence Chaney as an armed career criminal; the
enumerated-offenses clause requires three violent felonies that were “committed on
occasions different from one another.” 18 U.S.C. § 924(e)(1).
Chaney’s argument goes to the merits of his claim and does not address the
-4-

Case 1:07-cr-00012-LG-JMR Document 80 Filed 01/11/18 Page 5 of 6

necessary prerequisite – whether the holding of Johnson applies to his sentencing.
Since “limiting language in the Johnson opinion makes clear that its holding does
not extend to the enumerated-offenses clause,” United States v. Smith, 817 F.3d
492, 493 (6th Cir. 2016), the Court finds that Johnson does not justify analysis of
the merits of this successive § 2255 motion. Even if the Johnson decision
invalidated reliance on two of the burglary convictions under the residual clause of
the ACCA, Johnson neither created nor affected Chaney’s claim that the Court
should have counted the remaining five burglary convictions as one for purposes of
the enumerated-offenses clause. Accordingly, Chaney’s § 2255 motion must be
dismissed as successive without reaching the merits.
If it was necessary to analyze the merits of the motion, the Court would not
agree that the five burglary convictions count as one for purposes of the ACCA.
Chaney argues that “all five of his prior burglary and larceny of a dwelling
convictions were litigated on the same day in Mississippi state court, and he was
arrested on the same day for the five charges.” (Def. Resp. 9, ECF No. 78). Chaney
argues that the Court was required by the rule of lenity to assume that the
burglaries were committed on the same “occasion” because the Presentence
Investigation Report did not provide any detail about them.
The dates of Chaney’s arrest for burglary or conviction on the five-count
indictment have no bearing on when the burglaries were committed, and Chaney’s
trial counsel previously provided an affidavit stating that the burglaries “involved
five separate victims and occurred at different times on September 9th, 11th, and
-5-

Case 1:07-cr-00012-LG-JMR Document 80 Filed 01/11/18 Page 6 of 6

15th of 1981.” (Cox Aff. 2, ECF No. 49). Appellate counsel agreed. (Allred Aff. 3,
ECF No. 48) (“Counsel determined that Chaney had five separate convictions for
burglary of a dwelling in December of 1981 which satisfied the ‘violent felony’
requirement under the armed career criminal statute.”). Even if Chaney is correct
that the Court did not have adequate information at sentencing to determine if the
burglaries were committed on separate occasions, that information has been put on
the record post-sentencing. Chaney is not entitled to resentencing because he was
at all times subject to the ACCA.
IT IS THEREFORE ORDERED AND ADJUDGED that the [76] Motion to
Dismiss filed by the United States of America is GRANTED.
IT IS FURTHER ORDERED AND ADJUDGED that the [70] Petition
Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence by a Person in
Federal Custody filed by Ray Anthony Chaney is DISMISSED AS SUCCESSIVE.
SO ORDERED AND ADJUDGED this the 10th day of January, 2018.

s/

Louis Guirola, Jr.

LOUIS GUIROLA, JR.
UNITED STATES DISTRICT JUDGE

-6-

APPENDIX 2A

Case: 18-60039

Document: 00515555692

Page: 1

Date Filed: 09/08/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
September 8, 2020

No. 18-60039
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Ray Anthony Chaney, also known as Ray Anthony Bradley,
also known as Ray Chaney, also known as Ray A. Chaney, also known
as Ray N. Bradley,
Defendant—Appellant.
Appeals from the United States District Court
for the Southern District of Mississippi
USDC No. 1:16-CV-224
Before Haynes, Willett, and Ho, Circuit Judges.
Per Curiam:*
In 2007, Ray Anthony Chaney was convicted of three federal firearms
offenses, including being a felon in possession of a firearm as proscribed by
18 U.S.C. § 922(g)(1). The indictment alleged that he was punishable under
*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 18-60039

Document: 00515555692

Page: 2

Date Filed: 09/08/2020

No. 18-60039

the Armed Career Criminal Act (ACCA), 18 U.S.C. § 924(e), which
mandates an enhanced imprisonment range of 15 years to life if a § 922(g)
defendant has three prior convictions for a violent felony, a serious drug
offense, or both.

It listed several prior offenses, of which Chaney’s

Mississippi convictions in 1999 for one count of “burglary,” in 1995 for one
count of “burglary of a non-dwelling,” and in 1981 for five counts of
“burglary and larceny of a dwelling” potentially qualified as violent felonies
that would support the ACCA enhancement. The sentencing court applied
the ACCA enhancement and imposed a 235-month term of imprisonment for
the § 922(g) offense. We affirmed on direct appeal. United States v. Chaney,
299 F. App’x 390, 391-95 (5th Cir. 2008). Chaney filed an unsuccessful 28
U.S.C. § 2255 motion. We denied a certificate of appealability (COA).
After the Supreme Court held in Johnson v. United States, 576 U.S.
591, 593-97 (2015), that the residual clause in the ACCA’s definition of a
violent felony was unconstitutionally vague, we granted Chaney tentative
authorization to file a second or successive § 2255 motion to argue that the
burglary convictions used to support his ACCA enhancement did not qualify
as violent felonies. In re Chaney, No. 16-60349, 1-2 (5th Cir. July 18, 2016)
(unpublished); see also § 2255(h)(2); Welch v. United States, 136 S. Ct. 1257,
1265 (2016) (making Johnson retroactively applicable to cases on collateral
review). The district court dismissed Chaney’s successive § 2255 motion
pursuant to 28 U.S.C. § 2244(b)(4) after determining that Chaney’s claim
did not rely on Johnson and did not meet the filing requirements in
§ 2255(h)(2). We granted Chaney a COA. United States v. Chaney, No. 1860039, 1-3 (5th Cir. January 24, 2019) (unpublished).
A movant who seeks consideration of a successive § 2255 motion by a
district court must obtain authorization from this court to file the motion by
making a “prima facie showing” that his proposed claim relies on (1) “a new
rule of constitutional law, made retroactive to cases on collateral review by

2

Case: 18-60039

Document: 00515555692

Page: 3

Date Filed: 09/08/2020

No. 18-60039

the Supreme Court, that was previously unavailable,” or (2) newly
discovered, clear and convincing evidence that, but for the error, no
reasonable factfinder would have found the defendant guilty. §§ 2244(b)(3),
2255(h). When, as in this case, a movant obtains such authorization, he must
then actually prove at the district court level that his claim satisfies one of
those requirements. United States v. Wiese, 896 F.3d 720, 723 (5th Cir. 2018);
§ 2244(b)(4). If he cannot make that showing, the district court lacks
jurisdiction and must dismiss the motion. Wiese, 896 F.3d at 723-24. When
considering challenges to district court decisions under § 2255, this court
reviews findings of fact for clear error and questions of law, including
jurisdictional determinations under § 2244(b)(4), de novo. Id. at 723 n.3;
Reyes-Requena v. United States, 243 F.3d 893, 900 (5th Cir. 2001).
A prisoner making a Johnson claim must prove that “it was more likely
than not that he was sentenced under the residual clause.” United States v.
Clay, 921 F.3d 550, 559 (5th Cir. 2019), cert. denied, 140 S. Ct. 866 (2020). 1
To determine whether a sentencing court categorized a conviction as a crime
of violence based on the residual clause, we will consider the sentencing
record for direct evidence of a sentence, the PSR, other relevant materials
before the sentencing court, and the legal landscape at the time of sentencing.
Wiese, 896 F.3d at 724-25.
It is not clear from the legal landscape and sentencing record whether
the district court relied on the residual clause to determine that Chaney’s
convictions were for violent felonies. Thus, Chaney has failed to carry his

1

Chaney contends that a showing that the sentencing court may have invoked the
residual clause should be sufficient to prove that a successive petition relies on Johnson.
However, he acknowledges that his argument is foreclosed by this court’s decision in Clay.
See Clay, 921 F.3d at 559. He raises the issue solely to preserve it for further review.

3

Case: 18-60039

Document: 00515555692

Page: 4

Date Filed: 09/08/2020

No. 18-60039

burden of showing that his successive § 2255 petition relies on Johnson. See
Clay, 921 F.3d at 558.
Because Chaney has not shown that the sentencing court more likely
than not relied on the residual clause in determining that his five convictions
of “burglary and larceny of a dwelling” were for violent felonies for purposes
of the ACCA, we need not consider whether the sentencing court
unconstitutionally relied on the residual clause in determining that his
convictions of “burglary of a non-dwelling” and “burglary” were violent
felonies. 2
The district court’s judgment dismissing Chaney’s successive § 2255
motion for lack of jurisdiction is AFFIRMED.

2

Chaney contends that his five “burglary and larceny of a dwelling” convictions,
even if for violent felonies, should count only as a single ACCA predicate offense.
However, we lack jurisdiction to consider that argument in a successive § 2255 motion.
Johnson has no bearing on whether those convictions constituted a single ACCA predicate
offense and the claim does not otherwise meet the requirements in § 2255(h). See Weise,
896 F.3d at 725-26.

4

APPENDIX 2B

Case: 18-60039

Document: 00515555730

Page: 1

Date Filed: 09/08/2020

United States Court of Appeals
for the Fifth Circuit
___________
No. 18-60039
Summary Calendar
___________

United States Court of Appeals
Fifth Circuit

FILED
September 8, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Ray Anthony Chaney, also known as Ray Anthony Bradley,
also known as Ray Chaney, also known as Ray A. Chaney, also known
as Ray N. Bradley,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 1:16-CV-224
____________________________
Before Haynes, Willett, and Ho, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

